         estimony

                     STATEMENT OF
                   DONALD MANCUSO
               DEPUTY INSPECTOR GENERAL
                DEPARTMENT OF DEFENSE
                      BEFORE THE
                   SUBCOMMITTEE ON
          READINESS AND MANAGEMENT SUPPORT
                        OF THE
        SENATE COMMITTEE ON THE ARMED SERVICES
                          ON
                  DEFENSE ACQUISITION



Report No. D-2000-118     DELIVERED: April 26, 2000



             Office of the Inspector General
                 Department of Defense
                                                                   1


Mr. Chairman and Members of the Subcommittee:

Thank you for the opportunity to testify before you today on
current issues regarding Defense acquisition management.
Although the Department has been continuously improving the
acquisition process for at least 20 years, there has been
intensified interest and effort during the past several years.
The demands of post-Cold War Defense downsizing and the dramatic
revolution in business affairs created urgent need for
acquisition reform.

The Defense Reform Initiatives are the Department’s corporate
strategy to adapt better business processes, pursue commercial
alternatives and eliminate redundancy through consolidation and
streamlining. The Department has also adopted a vision of
becoming a world-class buyer of best value goods and services
from a globally competitive industrial base. In this regard the
DoD hopes to achieve this transformation through rapid insertion
of commercial technology, basic business process improvements,
creating a workforce that is continuously educated and retrained
to operate in new environments and institutionalizing
improvements through change insertion. In order to fulfill
these goals, the Department has initiated an unprecedented
number of major improvement efforts across the spectrum of DoD
activities, including at least 40 significant acquisition reform
initiatives. The Department has made notable progress in
acquisition reform and has also set several commendable goals.
Examples include:

•   de-emphasizing overly detailed military specifications and
    standards;
•   using credit cards for nearly 9 million small purchases in FY
    1999;
•   pushing for public and private sector implementation of public
    key infrastructure technology to enable secure electronic
    commerce;
•   replacing multiple, inconsistent, government-unique
    requirements imposed on contractors holding more than one
    Defense contract with common, best, facility-wide processes;
    and
•   establishing aggressive weapon system unit cost and total
    ownership cost targets, which are 20 to 50 percent below
    historical norms.

However, in the midst of this reform, the business of creating
and sustaining the world’s most powerful military force remains
                                                                   2


expensive and vulnerable to fraud, waste and mismanagement. In
FY 1999, the DoD bought about $140 billion in goods and
services, in 14.8 million purchasing actions, which means 57,000
purchasing actions on an average working day. The scope,
complexity, variety and frequent instability of Defense
acquisition programs pose particularly daunting management
challenges. In the rush to streamline and incorporate
commercial practices and products, the Department cannot
compromise its insistence on quality products and services at
fair and reasonable prices. An inherent challenge throughout
the Department’s acquisition reform effort is ensuring that
critically needed controls remain in place and that we have
proper oversight and feedback on new processes.

          Inspector General Role in Acquisition Reform

Since its establishment in 1982, the Office of the Inspector
General, DoD, has issued hundreds of audit reports identifying
problems in Defense acquisition programs and opportunities for
improving efficiency and effectiveness. In addition, the
principal focus of the Defense Criminal Investigative Service,
the criminal investigative arm of the Office of the Inspector
General, DoD, has always been procurement fraud, in its various
forms. For instance, we currently have over 660 open cases
involving procurement fraud, which include allegations of
product substitution, cost mischarging, defective pricing,
kickbacks and Buy America Act violations, as well as false
claims. Based on the many risks, vulnerabilities and problems
identified by our audit and investigative effort, the Office of
the Inspector General, DoD, has been in the forefront of those
calling for improved management across the spectrum of Defense
acquisition activities, from initial requirements determination
to the purchase and delivery of goods and services.

Acquisition audits and investigations provide insight into how
well individual programs and contracts are managed. Many of
them also provide independent feedback as to how well the
Department’s overall acquisition policies and applicable laws or
regulations are being implemented, and whether they are having
their intended effect. Audits are particularly useful for
verifying that reported performance information is accurate and
whether previously identified problems have been corrected.

Unfortunately, in recent years our oversight of Defense
acquisition has been severely constrained by resource shortfalls
and conflicting priorities. I am concerned that audit and
investigative coverage has been inadequate in nearly all Defense
                                                                   3


management sectors that we and the General Accounting Office
have identified as high risk areas. Given the Department’s
aggressive transformation efforts, an appropriate level of
oversight is now more critical than ever.

The DoD lacks a broad, systematic program of comprehensive
independent audit of acquisition programs. Currently, less than
ten of the several hundred weapon system projects are being
comprehensively reviewed by DoD internal auditors each year.
The same holds true for the 79 major information system
development and modification projects and hundreds of smaller
information technology projects. Whereas the Department spent
$51.8 billion for consultants and other support services in FY
1999, there have been only a few recent audits on management
controls with respect to contracting for services. Finally,
there is limited independent information available on the
progress of the 40 acquisition reform initiatives and the need
for other initiatives.

In addition to audit and investigative efforts, the IG role
in acquisition management improvement includes reviewing all
proposed legislative and regulatory changes. The Department
has been generally responsive to our advice on such matters and
congressional committees also request our views on acquisition
legislation issues on a routine basis. Similarly, we support
various cross-functional teams and task forces established by
the Department to study acquisition issues, identify
opportunities for reform, develop implementation strategies or
monitor progress. Assisting in those efforts is a high priority
for us and we currently have senior audit personnel
participating as team members or advisors for 16 acquisition or
logistics reform teams, such as the Acquisition Reform Senior
Steering Group, Acquisition Deskbook Working Group, Joint
Contracting Pilot Program, and a team working on long term
pricing arrangements for spare parts.

While my office does play a vital role in the Department’s
ongoing improvement activities and reform efforts, our coverage
is sorely inadequate. The heavy workload of the last two years
created by the successful DoD Year 2000 conversion effort, which
my office supported with over 180 audits, is now behind us and
we are trying to redress the imbalances in coverage caused by
that extraordinary effort. We continue to weigh the need to
improve coverage in the acquisition area against other urgent
oversight priorities in such critical areas as information
security, readiness and financial reporting. In 1999 alone,
DCIS opened 235 procurement fraud related investigations.
                                                                   4




Our resources are simply inadequate to provide the kind of
comprehensive oversight needed to successfully navigate this era
of sweeping reform. Last year, the Department recognized this
shortfall and decided not to proceed with most of a previously
planned IG budget reduction. The number of IG employees had
already been reduced by 26 percent since 1995. Despite
Departmental efforts, however, the appropriations committees
opted to cut our FY 2000 request, hampering our ability to
provide an appropriate level of oversight of vital areas such as
acquisition. We hope to better articulate our resource
situation this year and to achieve congressional support of our
FY 2001 budget request. In the interim, let me assure you that
we do work closely with other oversight organizations such as
GAO, DCAA and the Service audit and investigative agencies to
ensure we are optimizing available resources.

                     Special Emphasis Areas

Let me amplify on some of our recent audit work in Defense
acquisition. This Subcommittee has a clear understanding of the
myriad of challenges inherent in determining what forces,
capabilities and underpinning support infrastructure are needed
to implement the national security strategy. To assure success
across the spectrum of conflict, Defense managers must decide
what information systems, supplies and other logistical support
are needed; what these required goods and services should cost;
what is affordable; what acquisition strategy would achieve the
best results; and so forth. Today I would like to focus on four
aspects of these major issues, highlighting results from our
recent audit reports that are listed in the attachment to this
statement. Specifically, I will discuss contracting for
services, spare parts pricing, acquisition workforce reductions
and other transactions.

                    Contracting for Services

Issues related to Defense weaponry and other equipment attract
the most oversight emphasis and publicity, yet the annual
DoD expenditures for contractor services (rather than goods)
constitute a huge acquisition program in their own right. From
FY 1992 through FY 1999, DoD procurement of services increased
from $39.9 billion to $51.8 billion annually. The largest sub-
category of contracts for services was for professional,
administrative, and management support services, valued at
$10.3 billion. Spending in this sub-category increased by
                                                                   5


54 percent between 1992 and 1999 and will probably continue to
grow as outsourcing initiatives expand.

Deliverables from contracts for services often are not as
tangible as hardware, such as a missile or even a set of tires.
Quantifiable information on requirements, performance and costs
is frequently harder to develop, and overworked contracting
personnel are more likely to give priority attention to
equipment procurements than to mundane contracting actions for
consulting services or information systems support. Also,
except for travel and transportation services, the increased
efficiencies derived from e-commerce pertain much more to goods
than to services. We believe that, because of these factors,
DoD managers and contracting personnel were not putting
sufficient priority during the 1990’s on this sector of Defense
acquisition. Likewise, this area was virtually ignored for the
first few years of acquisition reform efforts. Consequently, we
believe the risk of waste in this area is higher than has been
commonly realized.

The awareness of the need for more emphasis on services
contracts has been growing over the past year, in part because
of two major audits, whose results I would like to summarize
for you.

Multiple Award Task Order Contracts. The Federal Acquisition
Streamlining Act authorized agency heads to enter into multiple
award delivery and task order contracts for procuring goods and
services. Multiple award contracts occur when two or more
contracts are awarded from one solicitation. Generally these
contracts have broad scopes and dozens of subsequent task orders
are awarded by the Government over the life of the contract.
The Act established a general preference for using multiple
awards and mandates their use for advisory and assistance
services contracts exceeding $10 million and 3 years duration.
The Act also stipulates that contractors on a multiple award
arrangement are to be provided a “fair opportunity to be
considered” for individual task and delivery orders over $2,500.

Multiple award contracts are excellent tools for avoiding
duplicative solicitations and accelerating the contracting
process. Their advantages are degraded, however, if the
individual task and delivery orders are inappropriately
sole-sourced or poorly priced.

In April 1999, we reported the results of an audit of 156
orders, valued at $143.7 million and placed on 12 multiple award
                                                                    6


contracts between 1995 and 1998. Whereas we found few problems
with the 32 delivery orders for goods, there were significant
problems with the 124 task orders for services. Specifically:

•   Contracting officers awarded task orders without regard to
    price. Price was also not a substantial factor in the
    selection of vendors for the initial multiple award contract.
    As a result, higher-priced contractors were awarded 36 of the
    58 task orders competed. We identified $3 million in
    additional costs resulting from awarding orders to contractors
    with higher-priced bids.

•   Contracting officers directed work and issued orders on
    a sole-source basis for 66 task orders, valued at
    $47.2 million, without providing the other contractors a fair
    opportunity to be considered. Only 8 of the 66 orders had
    valid justification for sole-source award. Eleven of the 66
    had no justification at all. As a result, DoD almost
    certainly paid higher prices than would have been the case if
    competition had been sought.

These problems were caused by a variety of factors, including
difficulty in establishing pricing on the multiple award
contracts at the time of award, because requirements for the
number and scope of subsequent task orders were not well
understood. Contractors also were not sure of the amount of
work they would receive, making it hard to forecast costs.
Regarding the failure to compete task orders, I believe the root
causes were lack of clear guidance, pressure to make task order
awards rapidly, and excessive workload in some contracting
offices, which deterred contracting personnel from questioning
sole-source preference input from program managers.

In response to the audit findings, the Director for Defense
Procurement has been gathering information from the Military
Departments on the need to establish a competition goal for
task orders on multiple award contracts-—we had suggested that
a goal of 90 percent would be advisable. The Director also
issued a memorandum in April 1999 calling the audit results
to the attention of senior acquisition officials and emphasizing
the need to consider price. The Congress took action by
mandating in Section 804 of the National Defense Authorization
Act for FY 2000 that the Federal Acquisition Regulations be
revised by April 2000 to improve guidance on the appropriate use
of task order and delivery order contracts. We have seen the
draft changes proposed for the Federal Acquisition Regulation
and agree they will help correct the reported problems. We have
                                                                    7


been gratified by the interest shown in our report and the
action by the Congress and Executive Branch.

Other Problem Indicators. In light of the problems found during
our work on multiple award task order contracts and various
other, more narrowly scoped audits, we undertook a comprehensive
effort last year to look at services contracts. We reviewed
105 Army, Navy and Air Force contracting actions, valued at
$6.7 billion, for a wide range of professional, administrative
and management support services amounting to about 104 million
labor hours, or 50,230 staff years. We were startled by the
audit results, because we found problems with every one of the
105 actions. The specific problems included:

•   Failure to use prior history to define requirements, which
    must be done before a clear statement of work can be written
    and the appropriate contract type can be chosen (58 actions);
•   Poor Government cost estimates (81 actions);
•   Cursory technical reviews (60 actions);
•   Inadequate competition (63 actions);
•   Failure to award multiple award contracts where required by
    law (7 actions);
•   Incomplete price negotiation memorandums (71 actions);
•   Inadequate contract surveillance (56 actions);
•   Lack of cost controls (21 actions);

The following examples illustrate some of these problems:

•     On a sole source Navy cost contract for $73 million that
      was renewed annually with the same contractor for 25 years,
      the contract file stated that cost of performing the work
      could not be forecasted to make the contract fixed-price.
      This rationale was not convincing.

•     A contracting officer identified $5.7 million in
      requirements for a fixed-price contract for the Air Force.
      The Air Force told the contracting officer to add $2.2
      million to a time and materials line item to use up
      available funding. There was nothing in the file to show
      rates, hours or labor categories to support the “plug in”
      figure.

•     One sole-source task order contract for professional
      services awarded for $19,871 was increased to $642,199 to
      add requirements for the contractor to buy things such as
                                                                   8


     furniture and computers. The Army was entitled to four
     free laptop computers from a quantity discount for the
     computer purchase. The Army gave the computers to the
     contractor, asking no consideration in return. Because of
     the added costs, furniture and computers should never be
     purchased on an unrelated contract for professional
     services.

•    One contracting officer arbitrarily determined which
     contractors would get 12 task orders on a sole-source
     basis. Another contracting officer followed the request of
     the program office to award 30 task orders sole-source with
     appropriate justification.

Lack of adequate staff and training for service contracting were
also evident by the following examples:

•    One person who was responsible for contract administration
     of 43 contracts valued at $621 million told us that he
     actually spent most of his time working on the upcoming
     award of 13 contracts valued at $115 million. Another
     contract had no contracting officer assigned for 6 months
     prior to the audit.

•    None of the 25 contracting personnel interviewed had
     received training in service contracts. Further, one
     contracting officer did not understand how to correctly
     apply the Truth in Negotiations Act to a $1.3 million
     sole-source cost type task order.

•    Because of constant personnel turnover and inexperienced
     staff on one $6 million sole-source contract, the DoD had
     to rely on the contractor data to tell them if the fee and
     hours were fair and reasonable.

It was impossible to quantify the monetary impact of these
deficiencies, but clearly waste was occurring. Further
complicating the problem, there were no performance measures in
use to judge the efficiency and effectiveness of the services
rendered.

We made numerous recommendations to management to address these
problems, stressing the paramount need for more effective
training. Many cost reimbursable contracts for repetitive tasks
should be converted to more economical fixed price contracts.
We also endorsed establishing centers of excellence, which in
this case would be specialized contracting organizations or
                                                                   9


cadre, as a means of developing in-depth expertise on services
markets and on services contracting techniques. We understand
that this concept has proven highly beneficial for private
sector businesses that purchase large volumes and varieties of
contractor services. The Department agreed with our
recommendations.

Recently we have noted a welcome upswing in interest and
activity regarding contracting for services and we assisted
in efforts such as developing a Performance Based Service
Acquisition Training Class. We agree with the Federal
Procurement Executives Council and DoD that performance based
acquisition strategies should be heavily emphasized when
contracting for services and we support the goal of making
half of services contracts performance based by 2005. We
welcome recent DoD initiatives for putting information such as
a guide for performance based service acquisitions on the web
and establishing a baseline and measures for tracking progress
on expanding the performance based approach.

Continuing Spare Parts Pricing Issues. In early 1998, we began
issuing a series of audit reports on prices paid for aviation
spare parts and equipment. As you may recall from your hearings
at the time and intermittent publicity since, we found that
prices paid under new, commercial type contracting arrangements
were considerably higher than was the case when the same items
were procured previously under “traditional” Defense contracts
or ordering agreements. In one case, DoD paid modestly
discounted, but still excessive, contractor catalog prices that
were $4.5 million (280 percent) higher than fair and reasonable
prices for $6.1 million of commercial items from one supplier.

Although the Department has been generally responsive to the
problems that we have identified on individual contracts, new
examples continue to surface as we do additional audits. We
have issued 5 more reports on spare parts in the last two years.
One report provided good news and the other four described
problems. Most recently, in a pair of reports issued last
month, we discussed pricing in a prototype contract for supply
support from what the DoD refers to as a virtual prime vendor.
Under this concept, one vendor anticipates DoD needs for a
specified list of commodities and assumes responsibility for
having inventory on hand to meet those needs, using a range
of modern commercial business practices and techniques.
Theoretically, considerable savings should result from shifting
the burden of carrying inventory to the vendor.
                                                                  10


As with many prototypes, some of the terms of this particular
contract proved to be flawed. The audit indicated that DoD was
paying on average 38 percent more than necessary for a variety
of aviation components and spares. The most egregious example
was propeller blade heaters for C-130 and P-3 aircraft. We
calculated that the $1.4 million paid in 1998 for blade heaters
ranged from 124 to 148 percent more than fair and reasonable
prices.

Although some DoD officials insist that we underestimated the
value of services being provided by prime vendors, this is not
the case and our followup efforts have confirmed that claims
related to improved parts availability because of the virtual
prime vendor contract are unsupportable. I am somewhat
constrained in my ability to discuss the details further because
we have not completed the process of identifying contractor
proprietary data in the two reports so that sanitized versions
can be released outside the Government. I can say, however,
that we are pleased that the Department agreed with our
recommendations to seek voluntary refunds; develop alternative
sources, where prudent; resolve technical data rights ownership
questions; cease paying prices that included contractor
royalties; and transition to an entirely different contracting
approach, namely, a long-term strategic supplier alliance based
on more sophisticated analysis of logistics support
requirements. In fact, initial meetings with the contractor to
explore that approach were held during the audit. We are
assisting the Department in moving forward into a new generation
of corporate contracts that should provide better value for the
taxpayer and fair profits for the suppliers.

There are a variety of problems to be addressed in spare parts
procurement. First, the Government must learn to be a smarter
buyer in terms of pooling its purchases to maximize its market
leverage, enable in-depth market research by specialists and use
economic order quantity approaches where feasible. Everything
possible must be done to maximize competition and avoid sole-
source situations. Virtually all of the pricing problems
identified by our audits arose on sole-source contracts.
Further, the Government should consider root causes of poor
purchasing decisions: under-staffing in DoD procurement
offices, unreliable inventory data, inadequate training and
incomplete guidance. Long term pricing arrangements should be
pursued with key suppliers, with mutual incentives for price
reduction. Lastly, contracting officers should use the tools
already made available by the Congress-—including the ability
under the Truth in Negotiations Act to obtain certified
                                                                  11


contractor cost data-—to ensure fair pricing in sole-source
procurements. For commercial items, to which the Truth in
Negotiations Act does not apply, contracting officers can still
negotiate good prices on the basis of uncertified cost data.
Some DoD acquisition officials discourage them from doing so,
but offer no practical alternatives for situations where no
competitive market forces exist to drive down prices.

Response to Audits and Congressional Direction for Spare Parts

The Department has initiated a concerted training effort to help
in buying commercial items, which will be useful where a
competitive commercial market exists.

In a report issued in July 1999, we recommended the Department
issue guidance for negotiating fair and reasonable prices for
sole-source spare parts called commercial items. To date, we
have not received an adequate response from the Department. We
were told the Department’s Price-Based Acquisition Study Report
would contain the requested guidance, but that did not occur.
We are also waiting for the Department to issue a Commercial
Item Handbook and hold a workshop on parametric cost estimating.
These actions are needed to address findings in an audit report
issued in February 1998.

Sections 803(a) and 808 of the Fiscal Year 1999 Authorization
Act required changes to the Federal Acquisition Regulation to
address problems we reported on overpriced spare parts in March
1998. The changes are not yet published. We have seen the
draft changes and, although we agree with many of them, we do
not believe they will fully address the problems of overpriced
commercial spare parts. The draft guidance does not adequately
address the statutory requirement to provide information other
than certified cost or pricing data. Our audits found that
doing price analysis, market research and reviewing contractor
sales data were ineffective tools to determine price
reasonableness for sole-source commercial spare parts.

Section 803(b) of the FY 1999 Authorization Act required the
Under Secretary of Defense for Acquisition, Technology and
Logistics to develop and implement procedures on unified
management of commercial items so that more efficient DoD
purchasing strategies would be possible. No procedures have
been developed or implemented to date. The Department is
working on unified management of sole-source spare parts with
one contractor and we strongly support that initiative; however,
the overall guidance gap remains.
                                                                  12




The Department has performed the commercial price trend analysis
required by Section 803(c) of the FY 1999 Authorization Act.
The first annual report on the price trend analysis for the
Defense Logistics Agency showed that commercial item prices,
especially those that are sole-source, increased at a much
greater rate than prices for noncommercial items. The Services’
price trend analyses were not as rigorous. Additional, more
detailed work is needed by the Department to improve the scope,
depth and consistency of those analyses. Nevertheless, we
believe these price trend reports can be developed into very
useful tools for both the DoD and Congress.

                    Acquisition Workforce Issues

Having made previous references to problems caused by the lack
of contracting workforce capacity and training, I would like to
call your attention to our recent report on the DoD Acquisition
Workforce Reduction Trends and Impacts.

The DoD reduced its acquisition workforce from 460,516 people in
September 1991 to 230,556 in September 1999, a reduction of 50
percent. Further cuts are likely and, in fact, one of this
year’s Defense acquisition goals is to achieve another 15
percent reduction in the DoD acquisition related workforce. If
workload had been reduced proportionally, eliminating half of
the acquisition positions could be regarded as a positive
achievement. Unfortunately, this has not been the case. From
FY 1990 through FY 1999, the value of DoD procurement actions
decreased about 3 percent, from $144.7 billion to
$139.8 billion. However, the number of procurement actions
increased about 12 percent, from 13.2 million to 14.8 million.
The greatest amount of work for acquisition personnel occurs on
contracting actions over $100,000, and the annual number of
those actions increased about 28 percent from FY 1990 to FY
1999, from 97,948 to 125,692.

We surveyed 14 of the 21 major acquisition organizations and
found this growing imbalance between resources and workload to
be a major concern. Acquisition personnel advised us that the
adverse consequences include:

•   skill imbalances (9 organizations), and
•   insufficient staff to manage requirements efficiently
    (9 organizations),
                                                                   13


•   increased program costs resulting from contracting for
    technical support versus using in-house technical support (7
    organizations),
•   difficulty retaining personnel (6 organizations),
•   reduced scrutiny and timeliness in reviewing acquisition
    actions (4 organizations),
•   increased backlog in closing out completed contracts
    (3 organizations),
•   lost opportunities to develop cost savings initiatives
    (2 organizations).

Our audit report contains various examples of problems related
to the reduced workforce. The following are illustrative of
those examples:

•     The Defense Contract Management Command’s lack of
      engineering and quality assurance presence in plants
      producing space launch vehicles caused the Command to
      express concern in its annual statement of assurance on
      management controls. The Command stated that, when it
      stopped inspections of all procedures in some plants, so
      did the contractor. Recent failures with hardware in the
      Space Program caused concern that the Command may have
      reduced the quality assurance program too much.

•     The Defense Logistics Agency stated that complaints about
      the quality of material received have increased; however,
      it has placed less emphasis on responding to customer
      complaints because of workforce reductions.

•     Reduced staffing in an Army organization caused the
      organization to give little attention to reducing backlogs
      in processing quality deficiency reports and equipment
      improvement reports.

•     An Army   organization said loss of expertise impacted
      efforts   to develop price analysis in a timely manner and
      reduced   oversight increased the risk that contracting
      actions   were not properly executed.

•     Lack of in-house engineering staff at an Army acquisition
      organization caused an increase in customer costs of
      $20,000 to $50,000 per each work year of support services
      for weapons programs because of the need to hire
      contractors to perform the work.
                                                                  14


•    Another organization stated it was missing opportunities
     for savings of $20 to $30 million annually because value-
     engineering workshops were drastically reduced by staffing
     reductions.

This appears to be a conservative summary of the overall impact
of this problem and, if further downsizing occurs, these
staffing management problems and performance shortfalls can only
get worse.

Likewise, there is cause for serious concern in the likelihood
of the DoD acquisition workforce losing about 55,000, or
42 percent, of its 129,000 personnel in key job series through
attrition by FY 2005. Also, there are overall disconnects
between workload forecasts, performance measures, productivity
indicators, and plans for workforce sizing and training.

In a general sense, DoD acquisition workforce reductions are
part of the overall downsizing of the Federal and Defense
workforce. However, Congress has singled out the DoD
acquisition population for separate downsizing emphasis,
while allowing the Secretary of Defense considerable latitude
in implementing reductions. We hope that our report will
encourage both the Congress and the Department to take stock of
the long-term human capital requirements in this crucial area.
The Department’s response to the report was positive and there
appears to be growing awareness of the serious risks related to
the Defense acquisition staffing outlook.

A reasonably sized, well-trained and highly motivated workforce
is by far our best safeguard against inefficiency, waste and
fraud.

                       Other Transactions

The last area that I would like to discuss today involves
special purchasing arrangements known as other transactions.
Other transactions were authorized to encourage commercial firm,
who otherwise might not contract with the Government, to join
with the Department on research and development efforts. Other
transactions are exempt from the usual controls and oversight
mechanisms set forth in acquisition statutes and the Federal
Acquisition Regulation.

There are two types of other transactions authorized by law.
The first, used for basic, applied and advanced research, are
called research other transactions. These arrangements pair DoD
                                                                 15


with a single company or a consortium of companies and require
the companies to contribute at least 50 percent of the costs.
The Department, however, can waive the 50 percent cost share.
The second type are called prototype other transactions.
These do not require cost sharing and may be used to develop
prototypes for weapons, information systems, major end items
such as ships and miscellaneous equipment like helicopter
blades.

The intent of using other transactions is to attract new
contractors to DoD. The results are mixed with respect to the
Department’s success in attracting new contractors through the
use of other transactions. Through FY 1999 there were
265 research other transactions valued at $3 billion. The
research other transactions included 653 traditional DoD
contractors and 225 new contractors. Traditional DoD
contractors received 72 percent of the funding for research
other transactions. There were 143 prototype other transactions
valued at $4.8 billion and they included 301 traditional DoD
contractors and 98 new contractors. In comparison, the normal
DoD contracting process attracted 1,972 firms new to the Defense
business sector in the past two years, so other transactions are
not the only way to attract more suppliers.

The majority of new contractors in other transactions is at the
second and third tier subcontractor level. For example, food
service contractors were brought in to help design new processes
for preparation and delivery of meals on new ships to reduce
military staffing. About 97 percent of the funding for
prototype other transactions went to traditional
DoD contractors. The three largest DoD contractors received
77 percent of the funding for prototype other transactions.

We recently completed two audits on other transactions, whose
results I will summarize below:

Evolved Expendable Launch Vehicle. The Evolved Expendable
Launch Vehicle program consisted of two other transactions with
$1 billion of DoD funding and an estimated $2 billion of company
funding. The EELV other transaction arrangements included
technical safeguards but provided limited insight into the
financial aspects of the program. Further, EELV program costs
will exceed the $1 billion of DoD costs reported to Congress
because one contractor was receiving a large DoD reimbursement
for its cost share for independent research and development. We
were also concerned about the use of inappropriate procedures
for protecting unclassified and contractor proprietary data.
                                                                  16


For example, the Evolved Expendable Launch Vehicle Program
Office denied the Air Force Operational Test and Evaluation
Center access to data needed to accomplish its job. Since the
audit, the Air Force program office has started getting
briefings on the contractor’s financial investment in the
program, and the contractor has provided the needed access to
data. However, we still disagree with the Air Force on the use
of inappropriate protective measures that limit visibility into
this project.

Costs Charged to Other Transactions. In this audit we assessed
whether the contractors were putting up their cost share for
research other transactions. We found problems with $83 million
of the $304 million of the contractors’ cost share for five
research other transactions. Contractors were counting as their
cost share other government contracts, duplicate equipment
costs, and prior research paid for by the Government. This
allowed contractors to reduce their actual cost share and risk
on the other transactions. We also noted that required reports
to Congress did not reflect the actual DoD cost of the other
transactions because traditional DoD contractors can get
separately reimbursed from DoD for their cost share allocated to
independent research and development. In this regard, the
congressional reporting requirements did not require the DoD to
report the details on reimbursements. We also found
inconsistent accounting treatment for overhead rates, and
insufficient planning for any potential audit requirement.

Regulations. Although the statute authorizing other
transactions has required issuance of regulations since 1994,
none have been issued. The Department has been operating the
program based on interim guidance memorandums and non-mandatory
deskbook procedures. The lack of regulations causes repetitive
relearning of the problems and solutions for managing other
transactions. The Department started an effort last fall to
develop a “guide” for use of other transactions; however,
compliance with the “guide” would not be mandatory. Although
issues that we or others identify would be addressed in the
“guide,” they would not have to be considered. In addition to
the statutorily required regulations, we also believe the
Department needs to develop performance measures for assessing
the benefits and costs of other transactions. Although DoD
agreed in 1998 with our recommendation to develop such measures,
this was never done.

Congress may consider legislative proposals for other
transactions this year. Given the inapplicability of
                                                                  17


traditional controls to other transactions, any expansion of the
authority for other transactions should provide the needed
protections both for the Department and the American taxpayers.

                           Conclusion

The Office of the Inspector General, DoD, continues to be a
strong supporter of acquisition reform. I appreciate your
interest in our reports and views on these challenging matters.
This concludes my statement.
                                                                  18




                    Acquisition Audit Reports
                    By Inspector General, DoD
                   Mentioned in this Testimony


98-064, Commercial and Noncommercial Sole-Source Items Procured
on Contract N000383-93-G-M111, February 6, 1998. The DoD
purchasing strategies were seriously flawed.

98-088, Sole-Source Prices for Commercial Catalog and
Noncommercial Spare Parts, March 11, 1998. The audited contract
was another example of poor acquisition planning.

99-026, Commercial Spare Parts Purchased on a Corporate
Contract, October 30, 1998. The DoD paid a 54.5 percent
premium, $3.2 million, on the audited contract for aviation
spares in fiscal years 1996 and 1997, but did not use the
services offered at the higher prices.

99-116, DoD Use of Multiple Award Task Order Contracts (4/2/99).
The audit was requested by Senator Carl Levin. Task orders were
awarded without sufficient consideration to price on 36 of 58
audited task orders. Only 8 of 66 audited sole-source task
orders had valid sole-source justifications.

99-217, Sole-Source Commercial Spare Parts Procured on a
Requirements Type Contract (7/21/99). A cost-based requirements
contract for aviation spares was appropriately priced.

99-218, Sole-Source Noncommercial Spare Parts Orders on a Basic
Ordering Agreement (7/21/99). The DoD paid $4.9 million (18
percent) more than fair and reasonable prices for $32.2 million
of aviation spares on a basic ordering agreement during fiscal
years 1996 through 1998.

00-065, Costs Charged to Other Transactions (12/27/99). Report
discusses issues identified with $83 million of $304 million of
contractor cost share for research other transactions and other
accounting and management issues requiring guidance.

00-070, Evolved Expendable Launch Vehicle Program Other
Transactions (12/30/99). The other transactions did not provide
adequate insight into financial aspects of the program, did not
fully disclose all Government costs for the program, and
required inappropriate protective measures for unclassified
data. (Report currently available only in a For Official Use
Only Version.)

00-088, DoD Acquisition Workforce Reduction Trends and Impacts
(2/29/00). The Department needs to reconsider the appropriate
size and skills mix of the acquisition workforce, which has been
                                                                  19


cut in half without significant workload reduction and faces
future skills shortages.

00-098, Spare Parts and Logistics Support Procured on a Virtual
Prime Vendor Contract (3/8/00). A long term alliance
arrangement would be preferable to the contractual terms under
which overpriced aviation spares were purchased in 1997 and
1998. (Report currently available only in a For Official Use
Only version.)

00-099, Procurement of the Blade Heaters for the C-130 and P-3
Aircraft (3/8/00). This report discusses one of the overpriced
spare parts procured under the contract that is evaluated in
Report No. 00-098. (Report currently available only in a For
Official Use Only version.)

00-100, Award and Administration of Contracts for Professional,
Administrative and Management Support Services (3/10/00). The
Military Departments needed to put more emphasis on all aspects
of procurement planning, contracting and contract administration
for services.
